No. 19-1328
IN THE SUPREME COURT OF THE UNITED STATES
________________
DEPARTMENT OF JUSTICE, PETITIONER
v.
HOUSE COMMITTEE ON THE JUDICIARY
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION FOR LEAVE TO DISPENSE WITH PREPARATION OF A JOINT
APPENDIX, via e-mail and first-class mail, postage prepaid, this 31st day of August 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 31, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-1328
DEPARTMENT OF JUSTICE
HOUSE COMMITTEE ON THE JUDICIARY

DOUGLAS N. LETTER
U.S. HOUSE OF REPRESENTATIVES
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
202-225-9700
DOUGLAS.LETTER@MAIL.HOUSE.GOV

